-476

No.

I

IN THE
SUPREME COURT OF THE UNITED STATES

DR. USHA JAIN AND MANOHAR JAIN
Petitioners,
vs

.DAVID BARKER, MARY BETH VALLEY,
MICHAEL FURBUSH and ROETZEL &
ANDRESS, L.P.A.,
Respondents.
On Petition for Writ of Certiorari to the Fifth District
Court of Appeals of State of Florida for Eleventh
Circuit Florida
PETITION FOR WRIT OF CERTIORARI
Dr. Usha Jain, Pro Se
Manohar Jain, Pro Se
4800 S. Apopka-Vineland Rd.
Orlando, FL 32819
Ph.: (407) 876-5555
Fax: (407) 876-5555
Emaihdrj ainproselitigant@outlook.com
iainemergicare@outlook.com
July 27, 2019

FILED
JUL 2 9 2019

i
QUESTIONS PRESENTED
Can State officers in the trial court and
appellate court act directly in conflict with
well-established precedent set by the Supreme
Court which recommends that pro se litigants be
given leniency but in the instant two cases there was
an abuse of power against pro se status?
Whether this Court should resolve the question of
the Federal Law of the Constitution’s prohibition
against discrimination based on litigants’ pro se
status and color by the state officers who were not
following the law. (e.g. Constitution, Florida Statutes
etc.). These are issues of great public importance
concerning the Constitutional rights of colored
people, with far reaching implications to the public
where people lose their houses and lifesavings.
This court needs to resolve a question of Federal law
of fundamental due process. Can judicial officers
violate fundamental due process by not holding the
hearing per notice, stop a pro se litigant in the
middle of the hearing and also prevent a meaningful
hearing with a threat of the contempt of the court?
This Court should resolve the conflicting decision of
the state court of last resort with other state courts
of last resort and also conflicting decision of other
states regarding mandatory pre suit mediation FS
720.311. This is a question of exceptional
importance in order to prevent clogging of the
docket with noncompliant suits?

11

Can state officer discriminate and retaliate pro se
litigants by preventing the opportunity to file an
appeal by not giving an order on reconsideration
motion?
Can an attorney, a court officer, file a document with
false statements with his signature during the
representation in the official record of HOA file to
fulfil the presuit notice requirement to file a lien and
eventually foreclose the house? This is a question of
great public importance because it challenges the
public trust in the integrity of the judicial system of
the United States of America.
Can state officers ignore FS Statutes 817.535
(recently enacted in 2013) where the filing of the
false document in the official record of an HOA with
an eye towards the foreclosure is permitted?
This Court needs to resolve a question: Can an
attorney and state officers, be allowed to defy and
defile FS Statutes 57.105 and 768.79 against pro se
litigants by not following any rules which are
required by FS? The above two FS are derogation of
the common law and needs to be followed to the
letter of the law. This Court need to affirm that filing
of 57.105 and 768.79 in bad faith is also a reason for
counter sanction.
Did the attorneys attempts to drive out the Pro Se
Plaintiffs
from the “legend golf community” of
Isleworth of Tiger Woods and Bay Hill of Arnold
Palmer in Florida on the basis of her race occur in
violation of 42 U.S.C. §1981?

Ill

LIST OF THE PARTIES
All parties appear in the Caption of the case on the cover
page.
Case No. 1
Dr Usha Jain and Manohar Jain,
Petitioners,
vs David Barker. Marv Beth Valiev ,
Michael Furbush and Roetzel and &
Andress L.P.A.
Respondents

Case No. 2
MANOHAR JAIN, and Dr. Usha Jain Petitioners
and .BAY HILL PROPERTY OWNERS
ASSOCIATION, INC.,

iv
TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.........................

3

STATEMENT OF THE CASE

4

ARGUMENT

20

REASONS FOR GRANTING THE WRIT
1. The decision below conflicts with this court’s
takings precedents......................................................... 30
2. This case is an ideal vehicle to address the
question presented......................................................... 31
3. This case presents a question of exceptional
importance to the Constitution of the country and
integrity of judicial system.......................................... 31
4. The decision below conflicts with decision of
other same state court of last resort and also other
states of last resort........................................................ 32
5. Question of great importance regarding the
33
retaliation by the judicial officers
6. Authority of this court to enforce deterrence of
fraud upon the court by state officers with proper
34
evidentiary hearing and not to defy fs 817.535
7. Question to be resolved by this court regarding
34
defying and defiling of fs 57.105 and 768.79

V

8. Question of great public importance to be
resolved by this court is unlawful attempts of
attorneys in violation of the Constitution to expel the
36
colored people from wealthy communities
CONCLUSION

37

INDEX TO APPENDICES
APPENDIX A Order on February 27, 2019, Denial
of Rehearing, Rehearing en banc and Request for
App. 1
written Opinion....
Order Rendered by 5th DCA on January 22, 2019.
.App. 2
Per Curiam affirmed
APPENDIX B
Order of February 8, 2018 from
the lower circuit Court Granting Defendants' Motion
to Dismiss Plaintiffs' 2nd Amended Complaint with
App. 3
Prejudice
APPENDIX C Order on April 3, 2019, Denial of
Rehearing, Rehearing en banc and Request for
App. 14
written Opinion,
Order Rendered by 5th DCA on February 26, 2019.
App. 15
Per Curiam affirmed
APPENDIX D
Order of June 15, 2018 from the
lower circuit Court Granting Defendants' Motion to
Dismiss Plaintiffs' 2nd Amended Complaint with
App. 16
Prejudice

VI

Table of Authorities

Cases

P.#

Alhambra Homeowners Association, Inc. u.
Asad,943 So. 2d 316 (Fla. 4th DC A 2006)..

22

.Aoude v. Mobil Oil Corp., 892 F.2d 1115, 1118
(1st Cir. 1989)........................................................

17

Brosnan u. Dry Cleaning Station, Inc. 2008 WL
2388392 (N.D. Cal 2008) (Failure to mediate
warrants dismissal.")..................................
a

21

Christian Herranz vs Roberto Siam 3D08 1252
2 So.3d 1105(Fla. 3 DCA......................................

23

City of Tampa v. Brown, 711 So. 2d 1188, 1189
(Fla. 2d Dist. App. 1998.....................................

25

Conrad v. Hidden States Mandatory mediation
for attorney fees.....................................................

21

Cooper v. Aaron, 358 U.S. 1, 78 S. Ct. 1401
(1958)......................................................................
Cruz v. Beto, 405 U.S. 319,322 (1972). accept as
true all factual allegations in the complaint ..
Davis ex rel. Davis v. Bell, 705 So. 2d 108 (Fla.
true
2d DCA 1996) Plaintiffs allegations

27
25
25

Vll

Dwork v. Executive Estates 219 So.3d 858
2017) (FL 4 DCA 2017). FI. Stat. 720 strict
compliance with notice..........................................
Elmore v. McCannnon (1986) 640 F. SUI)P.
905 "the right to file a lawsuit pro se................
Foundation v. Barr, 952 F.2d. 457,293 U.S.
App. DC 101, (CA DC 1991).duty... perform
every official act as not to violate
Constitutional prov."........................................
Goudie v. Garcia, 584 So. 2d 100, 101 (Fla. 3d
DCA 1991) (evidentiary hearing required to
resolve disputed facts raised in motion to
vacate for mediation)........................................

24
26
30

29

23

Hagans v Lavine 415 U, S. 533.Order is
null and void without jurisdiction...........

18

Haines v. Kerner, 404 U.S. 520 (1971) Supreme
Court pro se ..."less stringent stand"................

30

Hazel c-Atlas, 322 U.S. at 250-51, 64 S.Ct. at
1003-04. vacating a judgment..... fraud..........

20

Christian Herranz vs Roberto Siam 3D08 1252

24

Hughes v. Lott 350 F. 3d 1157, 1160 (11th Cir.
2003) unrepresented by added element of grace

30

3-J Hospitality, LLC v. Big Time Design, Inc.
(SD FL 2009) bound to mediate the claims.......

20

Vlll

Kemiron Atlantic 290 F. 3d 1291). Complaint
must be dismissed.................................................

21

Julia v. Julia 773 146 So. 3d 516 (Fla. 4th Dist.
2014) due process demands adequately heard...

25

Madison v. Purdy, 410 F.2d 99, 100 (5th Cir.
1969); “justice cannot be admin .... stopwatch.")

26

Maine v. Thiboutot, 100 S. Ct. 2502
Deemed to know the law..................................

28

Marbury v. Madison, 5 U.S. (2 Cranch)
137,180 (1803) Law repug... Constitution void..

28

Mattox v, U.S., 156 US 237,243. (1895)
" interpret the Constitution... light of the law..

28

Neate v. Cypress Club Condominium, Inc., 718
So. 2d 390, 392 (Fla. 4th DCA 1998)................

21
22

Owen vs. City of IndependencelOO S Ct.
1398; Officials deemed to know the law.

28

Ocasio v. Froedtert Memorial Lutheran
Hospital, 637 N.W. 2d 459 (2001)interpreting
statutory presuit mediation.... a matter of law.

23

Ridgewood Prop. Inc. v. Dept, of Community
Affairs, 562 So. 2d 322, 323-324 (Fla.
fairness
1990);Due process

20

Rodriguez v. Louis Santana No. 4D11-1856.
Improper notice violates ... due process rights".

24

IX

Sherer v. Cullen 481 F 946.
Constitution., no 'rule making' .. abrogate.....
Scheuer v. Rhodes 416 U.S. 232~ 94 S. CL
violation of the
1683,1687 (1974) Judge
Constitution....trespasser of the law
Shelley v. Kraemer. 334 U.S. 1 (1948)
Discriminations prohibited..................................
Schleger u. Stebelsky, 957 So. 2d 71, 72 (Fla.
4th DCA 2007should not .summarily dismissed
Somero v. Hendry Gen. Hosp., 467 So.2d 1103,
1104 (Fla. 4th DCA 1985))"favors of setting
aside defaults.... merits......................................
Stock v, Medical Examiners 94 Ca 2d 751.
211 P2d 289; In Interest of ftl.V., 288
III.App.3d 300,681 N.E.2d 532 (1st Dist.
1997) limited jurisdiction over a statutes..
Tramel u. Bass, 672 So. 2d 78, 83 (Fla. 1" DCA
1996)."obligation to deter fraudulent claims
from proceeding in court."..................................

29

27

36
23

19

24

19

Truax v. Corrigan 257 U.S. 312 (1921) (1921)
Due process rights., protective day in the court.

9

United States v. Guest. 383 U.S. 745 (1966) the
private with state officials to deprive ...rights
under Section One of the 14th Amendment......

19

U.S. v Holzer, 816 F.2d. 304, 307

21

X

WA LTD Partnership u Lemontang 19 So. 3d
1079 (Fla. 3 DCA 2009 ) due process requires
that a party be given sufficient notice to
prepare for a hearing.........................................

24

Williamson u. U.S. Department of
Agriculture, 815 F.2d. 369, ACLU
Foundation v. Barr, 952 F.2d. 457,293
U.S. App. DC 101, (CA DC 1991).duty...
perform every official act as not to violate
Constitutional prov."..........................................

28

Woods v. Holy Cross Hospital 591 F. 2d 1164
(5th Cir. 1979) presuit mediation mandatory

22

U.S. Constitution. Amendment XIV section one

3

U.S. Constitution. See, Art. Ill,

32

Section 181

10
10
34

FS Statutes 817.535
FS Statutes 720.311

21

FS Statutes 720.305 (2) (b)

6

Judicial Rule 2.505 (e)(f)

35

Judicial Rule 2.515

35

FI. R. Civ. P 1.540, 1.530

18

Rule of professional Conduct 3.7 and 3.4

35

1

IN THE
SUPREME COURT OF THE UNITED STATES
petition

FOR WRIT OF CERTIORARI

Petitioner respectfully nravs that a writ of certiorari
issue to review the judgment below.
OPINION BELOW
CASE NO.l 5D18-1215 01-22-2019 Dr. Usha Jain and
Manohar Jain v. David Barker, Mary Beth Valley and
Michael Furbush and Roetzel and Andress
The opinion of the state court of last resort to review the
merits appears at Appendix A to the petition at page App.l
and App. 2 of Appendix
5D18-2033 02-26-2019 Bay Hill Property
CASE NO 2
Owners Association, Inc. vs. .Dr. Usha Jain and Manohar
Jain
The opinion of the state court of last resort to review the
merits appears at Appendix C to the petition at page App. 14
and App. 15 of Appendix

2

JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257 (a) to review the final judgment of the
Florida Fifth District Court of Appeal and seeking
review of two similar cases pursuant to Rule 12.4.
Case no 1
The date on which the highest state court decided my
case was January 22, 2019. A copy of that decision
appears at Appendix A at page App. 2
A timely petition for rehearing was thereafter denied
on the following date: February 27, 2019, and a copy
of the order denying rehearing at Appendix A App.l
An extension of time to file the petition for the writ of
certiorari granted to and including July 27, 2019
date on May 23, 2019 date in application number
18A1204
Case No. 2
The date on which the highest state court decided my
case was February 26, 2019. A copy of that decision
appears at Appendix C, at page App. 15.
A timely petition for rehearing was thereafter denied
on the following date: April 03, 2019, and a copy of
the order denying rehearing Appendix C at App. 14.
An extension of time to file the petition for the writ of
certiorari granted to and including August 31, 2019
date on June 20, 2019 date in application # 18A1340

3

CONSITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment to the Constitution
prohibits discrimination and depriving any citizens
with the fundamental due process.
Since the 14th Amendment to the Constitution
states "NO State (Jurisdiction) shall make or enforce
any law which shall abridge the rights, privileges or
immunities of citizens of the United States nor
deprive any citizens of life, liberty, or property,
without due process of law....or equal protection
under the law" Const. Amend. XIV
•

•

•

A state court has decided an important
question of federal law in a way that conflicts
with relevant decisions of this Court.
A state court has decided an important
question of federal law that has not been, but
should be, settled by this Court regarding
discrimination and due process violation
against pro se litigants of color with ethnicity.
A state court of last resort has decided an
important federal question in a way that
conflicts with the decision of another state
court of last resort or of a United States court
of appeals regarding presuit mandatory
mediation required before filing a claim.

4

Statement of the Case
Introduction
This ease presents an important question of
Federal law of discrimination and due process
violation rights of naturalized citizens under the
14th Amendment to the Constitution of the
United States of America (section one). The two
cases are similar with same court, same Judge
Weiss and both are HOA cases. Both of these
houses are in wealthy, exclusive predominantly
Caucasian golf neighborhoods. The two cases are
also similar, in the plan of both opposing parties
to expel, pro se petitioners of ethnic origin, by
filing lien leading to foreclosure of the house.
The first case is where the petitioners live in
Isleworth, Windermere, Florida, a wealthy
exclusive, golf community with the legacy of Tiger
Woods. The attorneys of the HOA filed an alleged
false document in the record file of the
homeowners to satisfy precedent requirement to
foreclose the house and attorney fees FS 720.305.
The second case is where petitioners own a
house (leased) in Bay Hill with the legacy of
Arnold Palmer where the petitioners are
Defendants. The covenant violations came after
the house was leased to a black couple where the
husband was disabled and used a wheelchair.
Both cases were represented by petitioners as pro
se. In both cases there was discrimination and
due process violation of the Constitutional rights
because of the pro se status, color and ethnicity.

5

STATEMENTS OF THE FACTS OF CASE NO
2016-CA-7260-Q
On August 16s 2015 the Plaintiff Jains pro se filed
the case against the Defendants who are attorneys
of the law firm. Defendants made an alleged false
notification letter of fine with the defendant
signature to satisfy the precedent requirement to
collect the attorney fees per FS 720.305(2). Plaintiffs
representing pro se brought a claim under common
law fraud for the damages caused by filing an
alleged false letter (document) with false statement
of “via certified and return receipts requested” but
could not produce the receipts to authenticate the
document. This letter was a precedent requirement
of written notification per FS 720.305(2) (b) for the
fine to be enforceable. This letter was put in the file
with an eye towards enforcement of fine, to file a
lien, and thousands of dollars in attorney fees and
eventually foreclosure of the house and expelling the
Jains from the exclusive wealthy neighborhood of
Tiger Woods and Arnold Palmer. The damages
resulted directly from that enforcement letter
(fabricated bogus) which had no authenticity and
could not be proven. The Plaintiff Dr. Jain had to
close her emergency center on many occasions and
had to take a financial loss and also loss of
reputation in the community.1
The Plaintiff Dr. Jain is a doctor in the walk in emergency
center in the community and serves the community by serving
seven days a week for 35 years. If the urgent walk in center is
closed then no one can walk in and patient with emergencies
and distressed patients would have to go somewhere else.

6

All the Defendants concealed and refused to
provide the receipts for the certified letter even after
multiple requests of Plaintiffs which was simply
required for the authenticity of the document.
Judge Myers was assigned to the case but Mr.
Wert filed a unilateral notice for the hearing without
coordination and when the hearing happened the
Jains were representing pro se. Judge Myers went off
the record after the hearing and passed the
discriminatory remarks to pro se Dr. Jain
regarding her age and also threatened to sanction
her. Plaintiff Dr. Jain was also insulted by the
remarks of Judge Myers that he did not understand
her English, because the complaint was simple for
the damages caused by placing the alleged false
document in the official record of homeowner file to
satisfy the precedent requirement for the lien,
foreclosure and then thousands of dollars in of
Judge
Myers
insulted
and
attorney
fees,
discriminated Dr. Jain by going off the record after
the hearing on October 27, 2016.
Judge Myers let Michael Furbush be represented by
attorney Tom Wert and also represented as pro se.
This is against the Fla. R. Judicial Administration as
Defendant Michael Furbush cannot be represented
by himself and also by an attorney Mr. Wert per Rule
of Judicial Admin. 2.505 subsection (e) (f) and is
done with malice motive to collect two attorney fees.
Judge Myers ordered to amend the pleading and
dismissed Michal Furbush with prejudice.

7

Judge Higbee
On June 5, 2017 Judge Higbee had hearing for the
bundle of four motions including motion to dismiss
and notice was provided for the regular hearing.
Defendant Michael Furbush and attorney Mr. Wert
introduced the evidence and Judge Higbee allowed
them do that despite the objection by Pro se Plaintiff
Dr. Jain. Defendants produced evidence on spot in
the regular hearing, which unfairly hampered the
presentation of the Plaintiffs’ defense. Aoude v.
Mobil Oil Corp., 892 F.2d 1115, 1118 (1st Cir. 1989)
Fraud is also where “unfairly hampered the
presentation of opposing party’s claim or defense.”
The Plaintiffs felt totally helpless because the
UNCONSTITUTIONAL and
a
hearing was
VIOLATION OF DUE PROCESS. The Plaintiffs felt
the DISCRIMINATION was done because of their
pro se status, age and ethnicity.
UNDER THE LAW, notice of an evidentiary
hearing is required and it violates due process for an
evidentiary hearing to take place without putting all
parties on NOTICE specially a pro se party
Defendant Mr. Furbush and Mr. Wert had
perpetrated a “fraud upon the court” by interjecting
material unlawfully into the hearing to subvert the
integrity of the court itself. The Plaintiff had
IRREPARABLE HARM due to lack of evidence to
support their defense in the record which could not
be remedied in the appeal.
The order of Judge Higbee was partial, prejudicial
and influenced by unilateral evidence presented by
the Defendants only. The order of Judge Higbee

8

caused material injury to the pro se Plaintiffs by
granting the sanctions.
Judge Higbee discriminated the old professional
pro se litigants of ethnic origin by refusing to
invalidate the unlawful hearing. Judge had to be
recused for doing the discrimination, due process
violation against the US Constitution of Pro se
Plaintiff Jains.
The evidentiary hearing cannot be mixed with the
Motion to dismiss hearing, where it should be
within the four corners of the complaint but it was
tainted by the introduction of the evidence by Mr.
Wert and Mr. Furbush.
Judge Higbee also allowed double representation of
Michael Furbush by an attorney, Mr. Wert, and also
Michael Furbush represented himself as pro se. This
is against the Fla. R. Jud. Admin. 2.505, (e) (0- It
was prejudicial to the plaintiffs and caused material
injury to the Plaintiffs.
Due process is a federal law of the Constitutional
rights bestowed on the citizens by the Fourteenth
Amendment to the US Constitution. Where rights
secured by the Constitution are involved, there can
be no rule making or legislation which would
abrogate them. Davis v. Wechsler 263 U.S. 22, 24
(1923).On July 10, 2017.
The pro se Plaintiffs filed the Fraud upon the court
on July 10/ 2017 which was never heard even when
it was noticed to be heard.
The resulting
material injury to Plaintiffs is tremendous due to
the absence of due process being afforded.

9

Judge Higbee retaliated pro se Plaintiffs in the
case number 2017- CA-009984-0 in which Judge
Higbee never ruled on the motion of rehearing of
JWALA filed on November 6, 2018 for two months
and thereby causing the impediment of filing of a
notice of appeal.
JUDGE WHITE
Judge White, was assigned after recusal of Judge
Higbee, Judge White also agreed that under the law
the notice of evidentiary hearing is required to
present the evidence. On October 3, 2017 the
hearing was conducted and Judge White reversed
the sanctions by stating;
"Under the law, a notice of evidentiary hearing
is required and it violates due process for
an evidentiary hearing to take place
without putting all parties on notice.
There is nothing on the face of this record that
would allow the court to conclude that it was
proper for Judge Higbee to conduct an
evidentiary hearing when she did. It's also
undisputed that an evidentiary hearing in fact
was conducted because reviewing the minutes
on the record on the hearing on the motion for
sanctions it is clear that Judge Higbee took
evidence, and her order states that based on the
evidence she made her ruling."
Judge White did not hear the motion for fraud upon
the court which could have led the dismissal of the
entire case. Hazel- Atlas infra

10

JUDGE WEISS
Judge Weiss held the hearing on motion to dismiss
and made the judgment FINAL without looking
at the motion for fraud upon the court which
was filed well in advance six months ago on
July 10 2017. Judge Weiss abruptly stopped Dr.
Jain after five minutes who was representing
herself pro se. Judge Weiss would not let pro se
Plaintiff Dr. Jain talk about the unlawful actions of
Judge Higbee, and it seems related to her ethnic
origin and her female gender. This is another
incident of pro se discrimination and violation of
federal law of the Constitutional rights of the pro se
litigant.
Judge Weiss totally disregarded the complaint,
which was filed by pro se litigants under common
fraud, which is a cause of action when all of the
elements are satisfied. FS 817.535 was mentioned in
the complaint clearly along with elements of
actionable fraud.
Judge Weiss simply gave the decision that the
complaint was conclusory and refused to give any
amendment, completely ignoring FS 817.535.
Judge Weiss also ignored the violations by Mr. Wert
and Mr. Furbush in not following the judicial rules
(double representation 2.505(e)(f) and filing
perjurious statements 2.515), rule of professional
conduct (3.7 and 3.4). They also violated the admin
rule by not conferring with pro se litigants for
multiple hearings, along with defying and defiling
FS 57.105 and 768.79.

11

APPEALS COURT
The decision of denial of the amendment by Dr.
Judge Weiss was appealed by pro se litigant for
violation of due process and discrimination, The
amendment was heard only one time by Judge
Higbee who accepted evidence in the regular hearing,
which tainted the Plaintiffs Jains motion to dismiss.
Judge Weiss, new to the case, retaliated by not
providing fair due process and not allowing the
Plaintiffs to explain the tainting of the motion to
dismiss by Judge Higbee. Appellate court affirmed
the decision per curiam and denied the rehearing.
Appellate court did not acknowledge the violation of
the Constitutional rights and fraud upon the court by
Mr. Wert, Mr. Furbush, and Judge Higbee. 2
Also, opposing Counsel Mr. Wert has been influential
due to his position as member of the Board of the
Governor of Orange County Bar of 9th Judicial
Circuit (same court as all of the Judges in the case)
and has been the past president of the Orange
County Bar Association.3
Mr. Wert and Mr. Furbush has done many unlawful
misrepresentations against a pro se representation of
the Jains but no Judge paid attention to the facts in
the case and all these was affirmed per curiam by the
2 Appellate Judge Eisinaugle recused himself from the case apparently
Judge must know the other party

3 Mr. Wert has been the past president of the Orange County
Bar Association in the past and knows the judges in the case
and also the appellate judges specially Judge Cohen who was in
the Orange County.

12

Appeal Court. The defendants created a notice with
false statements to satisfy the prerequisite in FS
720.305(2)(b). The notice was inserted into the
homeowners association file with an eye towards a
foreclosure of the Plaintiffs’ house. Moreover, the
appellate court ordered an appellate fee without an
entitlement per FS 57.105 and 768.779.
The appeal court affirmed the trial court’s
decision for not giving the amendment despite Judge
Higbee’s and Judge AA^eiss s violation of the due
process and discrimination against pro se Plaintiffs.
On April 20, 2018, the hearing for defective
filing of the motion for sanctions per FS 57.105 by
Defendant Furbush was set five months in advance
by the pro se Plaintiff Dr. Jain. However, Judge
Weiss did not hear the motion. Dr. Jain protested
about the violation of due process for not holding
the hearing, but Judge Weiss again did not hear it.
Remand after Appeal
On March 6, 2019, Plaintiff Dr. Jain opposed the
noncompliant motion filed by the defendants per FS
768.79 and 57.105. The above defects of the motions
are the issues of the law which could be settled with
a non-evidentiary hearing.
No hearing was given for the above motion.
Instead, case management was ordered which mixed
the regular hearing of 15 motions with evidentiary
hearing for motion for sanction. The intermingling
of the motions can easily cause prejudice to the
Plaintiffs Jains. This type of prejudice already

13

happened with Judge Higbee who also mixed the
evidentiary hearing with regular hearing.
Plaintiff Dr. Jain filed motions for fraud upon the
court by Mr. Wert and Mr. Furbush, but Judge Weiss
denied it without holding an evidentiary hearing.
Judge Myers made threats for sanctions to Plaintiffs
Jains. Judge Weiss also threatened Plaintiffs for
contempt of court in order to intimidate them along
with threats for attorney fees, even when entitlement
per FS 57.105 and FS 768.79 was not done yet.
Discovery was blocked by stating that it was not
necessary because appellate court already ordered
the appellate fee but entitlement has to be done in
the lower court per 57.105 and 768.79. The
evidentiary hearing was set but Judge Weiss denied
all the depositions of the fact witnesses. Pro se
Plaintiffs cannot bring the evidences of bad faith
from Mr. Wert who was a manager of the law firm
and refused the deposition even if he is the fact
witness in the case.
CASE NO 2 2015-CA-8175-0
5D18-2033
Supreme Court 18A1340
The Bay Hill Plaintiffs entire case rests on a false
foundation by concealing the signed consent for
mediation by the petitioners, misrepresentation
of impasse by opposing counsel rather than a
mediator as required per FS 720.311, filing
premature suit in 20 days instead of 90 days and
collecting attorney fees without satisfying the
prerequisite mandatory mediation against pro se.

14

On September 1, 2015 suit was filed against the
Jains for covenant violation without doing a
mandatory prerequisite presuit mediation required
per FS 720.311. However, the Defendants did sign
the consent timely and it was in the court record.
Ms. Hatchette filed the lawsuit without doing a
mandatory presuit precedent condition before filing a
suit. The pro se Defendants timely signed the
consent to presuit mediation as required by the
Statute. Opposing counsel filed the lawsuit in 20
days while concealing the Defendants’ signed consent
to mediate. Ms. Hatchette immediately got the
summary judgment by unilateral hearing against the
defendants due to the fact that they were pro se.
Moreover, Dr. Jain was disabled because of serious
facial injuries from an assault at the time. During
this difficult time, Ms. Hatchette concealed the
signed document of the consent of mediation
from the Court. Bay Hill HOA conveniently violated
statutes by declaring impasse even when the signed
consent was in the record in the Defendants
pleading. Pursuant to FS 720.311 2 (b), mediator is
an authority to schedule mediation at a mutually
convenient time for both parties. Bay Hill HOA and
attorney took that authority in their own hand and
wrongfully stated that the schedule for mediation
could not be done.
FS 720.311(2) (b) is very clear and unambiguous
about scheduling. The mediation has to be done by
the mediator at a mutually convenient time and
place. Ms. Hatchette filed the suit prematurely in
20 days rather than 90 days (after she found out

15

that Dr. Jain was injured) to harass Dr. Jain who
was defending pro se, injured and is of ethnic origin.
FS 720.311 clearly states that the mediator is solely
res ponsible for declaring an impasse, as seen below:
To begin your participation in pre-suit
mediation to try to resolve the dispute
and avoid further legal action, please
sign below and clearly indicate which
mediator is acceptable to you. We will
then ask the mediator to schedule a
mutually convenient time and place for
the mediation conference to be held. The
mediation conference must be held
within ninety (90) days of this date,
unless extended by mutual written
agreement. In the event that you fail to
respond within 20 days from the date of
this letter, or if you fail to agree to at
least one of the mediators that we have
suggested or to pay or prepay to the
mediator one-half of the costs involved,
the aggrieved party will be authorized
to proceed with the filing of a lawsuit
against you without further notice and
may seek an award of attorney’s fees or
costs incurred in attempting to obtain
mediation.
FS 720.311 2 (b) also clearly states the party who
fails to mediate cannot recover attorney fees:
the
Additionally,
notwithstanding
provisions of any other law or document,
persons who fail or refuse to participate in

16

the entire mediation process may not
recover attorney’s fees and costs in
subsequent litigation relating to the
dispute. If any presuit mediation session
cannot be scheduled and conducted within
90 days after the offer to participate in
mediation was filed, an impasse shall be
deemed to have occurred unless both
parties agree to extend this deadline.
In sum, Ms. Hatchette filed the lawsuit
prematurely in bad faith with malicious intent to
hurt the defendants who were pro se and of ethnic
origin, especially disabled at the time.
Plaintiffs counsel failed to abide by Florida
Statutory requirement of conducting mandatory pre
suit mediation and thereby violated even the
Constitution of Florida because that involved defying
and defiling the statutes 720.311 against the Jains
who were pro se and of ethnic origin.
The Plaintiffs Jains had to continue to defend the
claim which did not satisfy the Florida Statue §
720.311 2 (b) and had to file the motion to dismiss
and also motions for sanctions per FS 57.105.
On December 14, 2015, Ms. Hatchette filed a
motion for summary Judgment and set her own
date for the hearing without any coordination.
The Defendant disputed this and Judge Rest set
a date for evidentiary hearing regarding the
dispute over the unilateral setting of the hearing
of the motion for summary judgment. The
hearing was also set for Defendants motion to

17

dismiss and motion for sanctions per FS 57.105.
Then when Ms. Hatchette was supposed to cancel
the hearing, she instead got the judgment in her
favor by misrepresenting that the mediation was
waived. This was a deceitful action of the
attorney. Judge Kest gave unilateral judgment
against a pro se party even when the issue of
mediation was not resolved, as the record clearly
showed that signed consent agreement for
mediation was in the Court file.
Judge Kest disregarded his own order for the
pending evidentiary hearing even when four
motions of the Defendants were pending. The pro
se couple never even got a chance to speak in
front of Judge Kest and judgment was given
unilaterally by a deceitful hearing.
This is a clear violation of due process and
discrimination of the pro se status and is against
the law of the Constitution of United States of
America.
On February 25, 2016, during the ex-parte
hours Judge Kest simply threw the pro se
Defendants out of the chamber when they simply
reminded Judge Kest about the pending
evidentiary hearings. He then filed an order for
reconsideration even when there was no hearing.
Judge Kest and Ms. Hatchette did not follow the
law as they were required to have an attorney
represent the trust that the Jains house was
under. Instead, they quickly closed the case with
proper
without
judgement
summary
representation and without regard to the
statutes. This was deceitful as the house was in

18

trust when Judge Rest gave the Final
judgment. Aoude v. Mobil Oil Covp., 892 F.2d 1115,
1118 (1st Cir. 1989)
Attorney Ms. Hatchette went to the extent that
Ms. Hatchette presented affidavit of Jim Audie
which was only hearsay and even mischaracterized
pro se Dr. Jain who has served the community for
34 years, seven day a week and saves lives.
Ms. Hatchette filed les pendens on the property
illegally which is not allowed for the covenant
violation. Ms. Hatchette went after the couple again
and gave the BOGUS citations for no reason. The
continuous discriminatory acts of Bay Hill are
against the Constitution.
Pro se Defendants have questioned the jurisdiction
of the court and even requested a hearing to resolve
this dispute but it was never provided. Final
Judgment against pro se was done against the law
when four motions needed to be heard by
evidentiary hearing scheduled two months later on
April 18, 2015.
"A judgment rendered by a court without personal
jurisdiction over the defendant is void. It is a
nullity." Hagans v. Lavine 415 U, S. 533.
Judge Weiss dismissed the case on 1.540 and motion
per 1.530 was never heard. Judge Weiss did not hold
an evidentiary hearing required to resolve disputed
facts raised in motion to vacate, see also Schleger v.
Stebelsky, 957 So. 2d 71, 72 (Fla. 4th DCA 2007) (“A
motion for relief from judgment should not be

19

summarily dismissed without an evidentiary hearing
unless its allegations and accompanying affidavits
fail to allege colorable entitlement to relief.”).
Judge Weiss did not hold an evidentiary hearing nor
did he set aside the judgment. Somero v. Hendry
Gen. Hosp., 467 So.2d 1103, 1104 (Fla. 4th DCA
1985)"favors of setting aside defaults.... merits.”
APPEAL COURT IN CASE NO. 2
The decision was appealed to 5th DCA which
confirmed per curiam decision which incorrectly
applied Statutes 720.311 regarding the pre-suit
mediation. Appeal court also disregarded the fact
that the unilateral judgment was done when the pro
se party was not present in the hearing which was
supposed to be cancelled. The judgment was not
done on the merits but it was based on the
unilateral misrepresentation against the pro se
party. The appeal court also had a chance of making
a correction equal application of the law against pro
se litigants by upholding the FS Statutes 720.311.
Appeal court in case of Bay Hill affirmed the
decision even when there was a violation of FS
review was de novo. The house is question has been
in good condition all these years but their motive
was to get the black tenants out of the
neighbourhood. Also appeal court incorrectly
ignored the fraud committed to defile the FS
720.311.
The Appeals court denied to hear an appeal per
1.530 and heard only per 1.540 even when the
motion for reconsideration was still pending.

20

Concealment of the consent for mediation and
false assertion about refusal to schedule are both
purely deceitful actions of Attorney Hatchette.
U.S. 637 (1974) McNally v. U.S., 483 US
350,371-372, and Quoting U.S. v Holzer, 816
F.2d. 304, 307 Fraud in its elementary law sense of
The Plaintiffs entire case rests on a
deceit
In Hazel-Atlas, the relief
false foundation.
awarded took the form of vacating a judgment long
after it had become final, and prohibiting the
judgment-holder from relitigating its claim. 322 U.S.
at 250-51, 64 S Ct. at 1003-04.
In any case, it is illegal, and every case which has
had fraud involved can be reopened at any time,
because there are no statutes of limitations on fraud.
Argument
The Fourteenth Amendment guarantees that “[t]he
right of the people to fundamental due process and
prohibits discrimination on the basis of age sex, race
religion and pro se status of the citizens.”
Fundamental due process shall be observed and shall
govern the proceedings. Due process requires that
decisions be arrived at by maintaining the reality
and appearance of fairness. Ridgewood Prop. Inc. u.
Dept, of Community Affairs, 562 So. 2d 322, 323-324
(Fla. 1990).

21

Trial courts possess the inherent power to protect
the function, dignity, and integrity of the judicial
system. Tramel v. Bass, 672 So. 2d 78, 83 (Fla. 1st
DC A 1996). This includes the right and even
obligation to not defy and defile the Statutes and
to deter fraud upon the court by the litigants
FS 720.311 is clear and not ambiguous. It is a
prerequisite mandatory requirement before filing
lawsuit for covenant violations. Defying and
defrauding FS 720.311, should not be allowed by Bay
Hill’s attorney or Judge Rest even though the
Defendants were a pro se party. Further defiling of
FS 720.311 came by declaring an “impasse” by
attorney Hatchette of Bay Hill unilaterally when it
was a responsibility of the mediator per FS. Also in
filing the lawsuit in 20 days instead of waiting for
the full 90 days per FS.720.311. Fraud upon the
court by concealing the consent of the mediation at
the time of filing the suit is deceitful. McNally v.
U.S., 483 US 350,371-372, Quoting U.S. v Holzer,
816 F.2d. 304, 307.
Adherence to the plain meaning of the statute
requires mediation as a precondition to filing
suit. Because the dispute falls within the purview of
Fla. Stat. § 720.311, the trial court had no choice but
to dismiss the suit due to the Plaintiffs failure to
satisfy a pre-condition to initiating a lawsuit. Neute
v. Cypress Club Condominium, Inc., 718 So. 2d 390,
392 (Fla. 4th DC A 1998). The analysis provided by
the Fourth District Court of Appeal in Neute may be
similarly applied to Fla. Stat. § 720.311.

22

The obvious intent of sections720.311 fully expressed
by the legislature is that no party may commence
an action in court on a dispute covered by the
statute until and unless mediation / arbitration
has been had. As we earlier explained, the
requirement of prior mediation / arbitration is a
condition precedent to any suit on the dispute.
Plaintiffs attorney Hatchette’s failure to mediate
is immediate grounds for dismissal. See Alhambra
Homeowners Association, Inc. v. Asad, 943 So. 2d 316
(Fla. 4th DCA 2006) This is also enumerated in
Conrad v. Hidden States and Neate v. Cypress Club
Condominium, Inc., supra
Presuit mediation is also required per 3-J
Hospitality, LLC v. Big Time Design, Inc. (SD FL
2009).In sum, after careful consideration of
controlling law, the court finds that Plaintiff is bound
to mediate the claims presented in the complaint
before it may proceed...Accordingly, Plaintiff has
failed to satisfy a condition precedent to litigation
and the complaint must be dismissed." (Citing
Kemiron Atlantic 290 F. 3d 1291). 3-J supports
looking to other state jurisdictions for guidance on
pre-suit mediation requirements, (e.g. it cites
Brosnan v. Dry Cleaning Station, Inc. 2008 WL
2388392 (N.D. Cal 2008) (Failure to mediate a
dispute pursuant to a contract that makes mediation
a condition precedent to filing a lawsuit warrants
dismissal."); Woods v. Holy Cross Hospital 591 F. 2d

23

1164 (5th Cir. 1979) (Dismissing medical malpractice
action where mediation was a condition precedent to
filing suit under state law.)
A medical malpractice case from Wisconsin may
provide the best guidance of all. In Ocasio v.
Froedtert Memorial Lutheran Hospital, 637 N.W. 2d
459 (2001) the appeals court first held that
interpreting
statutory
presuit
mediation
requirements was a matter of law to be reviewed de
novo Next, the court ruled that waiting a minimum
of 60 days after serving a notice of mediation was
required and the plaintiff could not proceed with suit
until the time elapsed. The appeals court must also
decide permissive or mandatory.
Concealment of the consent to mediation and
misrepresentation about the refusal to schedule
were purely deceitful actions of Attorney
Hatchette of Bay Hills which was then allowed by
Judge Rest and Judge Weiss and was later
affirmed by the Appeals Court.
Intentional Omission: Fraud also includes the
intentional omission of a material fact.
Ward v. Atlantic Security Bank, 111 So.2d 1144, 1146
(Fla. 3d DCA 2001).
The Appeals Court per de novo review issued a
per curiam decision without any deference to
defying and defiling of FS 720.311 by Judge Rest
and Judge Weiss against a pro se litigant Dr.
Jain and Mr. Jain which was discriminatory
against the equal protection under the law.

24

U.S. 637 (1974) McNally v. U.S., 483 US 350,371372, Quoting U.S. v Holzer, 816 F.2d. 304, 307
Fraud in its elementary form is law with a sense
for deceit.... includes the deliberate concealment of
material information in a setting of fiduciary
obligation.
The Appeals Court incorrectly did not consider
the misrepresentation for the mediation by
Attorney Ms. Hatchette. In Hazel-Atlas, the relief
awarded took the form of vacating a judgment long
after it had become final, and prohibiting the
judgment-holder from relitigating its claim. 322 U.S.
at 250-51, 64 S.Ct. at 1003-04. In any case, it is
illegal, and every case which has had fraud involved
can be re-opened at any time because there are no
statutes of limitations on fraud.
The Appeal court affirmed without requiring an
evidentiary hearing for misrepresentation of the
mediation Schleger v. Stebelsky, 957 So. 2d 71, 72
(Fla. 4th DCA 2007) (“A motion for relief from
judgment should not be summarily dismissed).
Goudie v. Garcia, 584 So. 2d 100, 101 (Fla. 3d DCA
1991) (evidentiary hearing required to resolve
disputed facts raised in motion to vacate).
The Appeals Court incorrectly affirmed the
judgment which is against FS 720.311. “Where a
court's power to act is controlled by statute, the
court is governed by the rules of limited
jurisdiction" and courts exercising jurisdiction, must
proceed within the structures of the statute. Stock
v, Medical Examiners 94 Ca 2d 751.211 P2d 289;

25

Argument Case No 1
The Appeals Court’s affirmation per curiam was a
decision without any regard to Federal Law and the
Constitution when Judge Higbee violated due
process against pro se Dr. Jain. The Appellant Dr.
Jain was denied due process in the hearing of June 5,
2017 with Judge Higbee which was not in compliance
with the hearing notice requirements. Judge Higbee
took evidence against her own notice of regular
hearing of four motions as published per Christian
Herranz vs Roberto Siam 3D08 1252 (Reversing
results of hearing as evidentiary hearing must
specifically be noticed as such). RODRIGUEZ,
Appellant, v. Lou SANTANA, Appellee. No. 4D111856.Decided: December 14, 2011 (A trial court
violates a party's due process rights “when it
expands the scope of a hearing to address and
determine matters not noticed for hearing) Dwork v.
Executive Estates 219 So.3d 858 (2017) (FL 4 DCA
2017). FI. Stat. 720 strict compliance with notice
requirement should be adhered.
Due process requires that a party be given sufficient
notice to prepare for a hearing WA LTD Partnership
v Lemontang 19 So. 3d 1079 (Fla. 3 DCA 2009).
The Appellate court also incorrectly affirmed Judge
Weiss’s decision even when Judge Weiss abruptly
interrupted pro se Plaintiff Dr. Jain in the middle of

26

the hearing, Pro se Dr. Jain got only five minutes
total with no rebuttal time. The Pro se Plaintiff thus
did not get a chance to have a meaningful hearing.
Julia v. Julia 773 146 So'. 3d 516 (Fla. 4th Dist'.
2014) (The principles of due process demand that
both parties be adequately heard... as justice
cannot be administered with a stopwatch.")Madison
v. Purdy, 410 F.2d 99, 100 (5th Cir. 1969); “justice
cannot be admin .... stopwatch.")
The Appeals court affirmed the decision of the court
without attention to the recurrent violation of due
process by every judge in the case because pro se
litigants, are colored and of ethnic origin. Judge
Myers of the trial court refused to give disclosure
and threatened pro se for sanctions even when the
attorneys who made the certified document to fulfill
FS 720.305 could not produce the receipts and it was
a sham document to file a lien and foreclosure.
Judge Eisinaugle of the appeals court recused in the
case, as he likely knows the attorneys of Isleworth.
The Appeals Court affirmation per curiam is
incorrect and is in conflict with the precedent
cases.Davis ex rel. Davis v. Bell, 705 So. 2d 108 (Fla.
2d DCA 1996) Plaintiffs allegations in complaint
should be taken as true.) Cruz v. Beto, 405 U.S.
319,322 (1972). accept as true all factual allegations
in the complaint

27

Reasons to Grant a Petition for Certiorari
Violation of the Constitutional Right of Equal
Renefit nf all laws and Proceedings in both
Cases
Originally included as part of the Civil Rights Act of
1866, Section 1981(a) states in relevant part:
All persons within the jurisdiction of the United
States shall have the same right in every State and
Territory to make and enforce contracts, to sue, be
parties, give evidence, and to the full and equal
benefit’of all laws and proceedings for the security of
persons and property as is enjoyed by white citizens,
and shall be subject to like punishment, pains,
penalties, taxes, licenses, and exactions of every
kind, and to no other.
"the right to file a lawsuit pro se is one of the most
important rights under the Constitution and laws,
and they should be given proper due process.
Elmore v. McCannnon (1986) 640 F. SUI)P. 905
All decisions should be based on admissible evidence
and defenses rather than innuendo, hearsay, or
predetermined opinions. City of Tampa v. Brown,
711 So. 2d 1188, 1189 (Fla. 2d Dist.App. 1998),
rehearing granted 728 So. 2d 200 (Fla. 1988).
The U.S. Supreme Court stated that "when a
state officer acts under a state law in a manner
violative of the Federal Constitution, he comes into
conflict with the superior authority of that
Constitution, and he is in that case stripped of his

28

official or representative character and is subjected
in his person to the consequences of his individual
conduct. The State has no power to impart to him
any immunity from responsibility to the supreme
authority of the United States. Scheuer v. Rhodes
416 U.S. 232- 94 S. CL 1683, 1687 (1974)
As state officers, Judges cannot violate the due
process requirement and act in violation of the law
as Judge Higbee, Judge Weiss and Judge Myers did.
"All law (rules and practices) which are repugnant to
the Constitution are VOID". Since the 14th
Amendment to the Constitution states "NO State
(Jurisdiction) shall make or enforce any law which
shall abridge the rights, privileges, or immunities of
citizens of the United States nor deprive any citizens
of life, liberty, or property, without due process of
law .... or equal protection under the law", this
renders judicial immunity unconstitutional._Marbury
v. Madison, 5 U.S. (2 Cranch) -137,180 (1803).
Judges are bound by the federal rules Mattox v, U.S., 156
US 237,243. (1895) "We are bound to interpret the
Constitution in the light of the law as it existed at the time it
was adopted." Mattox v. U.S., 156 US 237,243.
(1895)
The Appeals Court incorrectly affirmed the final
judgment when there was a violation of the
Constitutional rights of pro se Dr. Jain and also
defying and defiling FS 720.311.
Any judge who
does not comply with his oath to the Constitution of
the United States wars against that Constitution
and engages in acts in violation of the supreme law

29

of the land. The judge is engaged in acts of treason.
Cooper v. Aaron, 358 U.S. 1, 78 S. Ct. 1401 (1958)
Judge Weiss, Judge Higbee and Judge Myers cannot
claim that they did not know the law of due process
violation and of not discriminating pro se party. The
Judges deem to know the law Owen vs. City of
Independence100 S Ct. 1398; officials and judges
are deemed to know the law and sworn to uphold the
law: officials and judges cannot claim to act in good
faith in willful deprivation of law, they certainly
cannot plead ignorance of the law, Maine vs.
Thiboutot, 100 S. Ct. 2502
Judges have a duty to do the right thing even if the
party is pro se and is of ethnic origin. "It is the duty
of all officials so to perform every official act as not
to violate Constitutional provisions. Williamson v.
U.S. Department of Agriculture, 815 F.2d. 369,
ACLU Foundation v. Barr, 952 F.2d. 457,293
U.S. App. DC 101, (CA DC 1991)."
Judges are bound by the law of the Constitution.
Where rights secured by the Constitution are
rc
involved, there can be no rule making or legislation
which would abrogate them.”
Sherer v. Cullen, 481 F 946.
Davis v. Wechsler, 263 US 22, 24

30

The Court decided in United States v. Guest, 383
U.S. 745 (1966) that the Enforcement Clause gave
Congress the power to regulate the private
individuals who conspired with state officials to
deprive people of their rights under Section One of
the Fourteenth Amendment.
REASONS TO GRANT A PETITION FOR A
WRIT OF CERTIORARY
1. THE DECISION BELOW CONFLICTS
WITH THIS COURT’S TAKINGS PRECEDENTS
The decision below is in conflict with the Supreme
Court’s decision. This Court had a precedent where
an extra leniency should be afforded to a pro se
litigant. Haines u. Kerner, 404 U.S. 520 (1971)
Supreme Court pro se ..."less stringent standard
Hughes v. Lott 350 F. 3d 1157, 1160 (11th Cir. 2003)
unrepresented by added element of grace. This
question of Federal law is of exceptional importance
because millions of people who are trying to get
justice in the court by self-representation become
victim of abuse of power by judicial officers and court
officers and lose their life savings. Florida is growing
very rapidly and many working people cannot afford
attorneys. The law should be applied equally despite
their pro se representation to get the justice and
attorneys and judicial officers should treat them like
a human being and not like a second class citizen.
The Constitution provides citizens’ rights
to
represent pro se Elmore v. McCannnon (1986) 640 F.
SUI)P. 905 " But if the pro se litigants do not get

31

equal opportunity and also get in lethal traps by the
abuse of the power then that right has no meaning.
Judicial officers and court officers do not feel
obligated to follow the law and rule of professional
conduct. Judicial officers and court officers do not
follow any laws and statutes against pro se litigants.
Judicial officer should not abuse the power to
retaliate the self-representing citizens who are trying
to get justice.
2. THIS CASE IS AN IDEAL VEHICLE TO
ADDRESS THE QUESTION PRESENTED The
writ of certiorari should be granted because this case
is of great public importance concerning the
discrimination of race and colored people, with far
reaching implications to the public where millions of
disadvantaged people lose their houses and
lifesavings. These two cases where there was
discrimination not only to the pro se status but also
involved the age, sex, race and ethnicity. In Bay Hill
case this discrimination was also extended against
the renters who were black with disability.

3. THIS CASE PRESENTS A QUESTION OF
EXCEPTIONAL
IMPORTANCE
TO
THE
CONSTITUTION OF THE COUNTRY AND
INTEGRITY OF JUDICIAL SYSTEM.
The national importance of the takings question
presented about a fundamental due process written
to the Constitution of US in 14th Amendment can
hardly be overstated and further warrants the grant

32

of certiorari. The written Constitution by the
founding fathers in the due process clause is the
most important right of the citizens. The right to file
a lawsuit pro se without providing fair due process
by state officers defeats the purpose of the citizens’
rights to self-represent. In the instant two cases the
self-representing pro se litigants were not given any
due process by defaulting and giving Final summary
judgment by conducting unilateral hearing. The pro
se litigants never got a chance to present the issue of
the law which was clearly present in the record. In
the second case the due process was violated by
taking unilateral evidence, stopping the pro se doctor
Usha Jain in the middle of the hearing, and threat of
contempt of the court sanctions by Judges.

4. THE DECISION BELOW CONFLICTS
WITH DECISION OF OTHER SAME STATE
COURT OF LAST RESORT AND ALSO OTHER
STATES OF LAST RESORT
This Court should resolve the question of
exceptional importance in order to prevent the
clogging of the court throughout this country with
noncompliant suits, by violations of mandatory
presuit requirements by attorneys vs pro se. The
decision below of this Appeals Court of last resort
conflicts with the decision of other appeals court of
Florida and also the appeals court of last resort of
other states. This a great reason to grant certiorari

33

regarding the strict requirement of presuit mediation
to preempt the clogging of the court from
unnecessary suits. In the instant case #2 of Bay Hill,
a noncompliant suit was filed and pro se litigants
were given the final judgment with unilateral
summary judgment without regard to due process
and the case reached all the way to attorney fees
with many misrepresentations. The Judge never
granted an evidentiary hearing which is also
required for proper due process. Appeal court
affirmed the decision per curiam without regard to
improper Final Judgment by Judge Kest and failure
of Judge Weiss to provide the evidentiary hearing
for a matter of jurisdiction and also fraud upon the
court by Plaintiffs attorney of Bay Hill. Schleger v.
Stebelsky, 957 So. 2d 71, 72 (Fla. 4th DCA 2007),
Goudie v. Garcia, 584 So. 2d 100, 101 (Fla. 3d DCA
1991).
5. QUESTION OF GREAT IMPORTANCE
REGARDING THE RETALIATION BY THE
JUDICIAL OFFICERS
The reason this writ should be granted is to have
the question resolved regarding the retaliatory
abuse of power in not rendering an order on the
petitioner’s motion for reconsideration and denying
a just sua sponte recusal which is supported by the
case law of William Caperton. In the instant case,
the abuse of power by Judge Higbee led to her
recusal but resulted in her retaliation by not
rendering the order in another case of Jains. This
abuse of power in retaliation cause material injury

34

to the pro se Plaintiff Dr. Jain who is an older lady
doctor of medicine and of ethnic origin.
6. AUTHORITY OF THIS COURT TO
ENFORCE DETERENCE OF FRAUD UPON
THE COURT BY STATE OFFICERS WITH
PROPER EVIDENTIARY HEARING AND NOT
TO DEFY FS 817.535
This Court has highest authority for enforcing
the deterrence of fraud upon the court by the court
officers. The judicial officer has an obligation to deter
the fraud upon the court to subvert the judiciary.
There is a new FS that emerged in 2013 which
prevents filing false documents in official file,
especially a prerequisite document required to lien
and foreclose a house. Judge Weiss who gave the
final judgement totally ignored FS 817.535 and the
appeals court (5th DCA) affirmed it per curiam
against a pro se litigant. Attorneys filing the false
document in the official record file, was the reason
for the financial damage of the petitioner Dr. Jain
who is a medical doctor and serves the community
for emergencies.
7. QUESTION TO BE RESOLVED BY THIS
COURT REGARDING THE DEFYING AND
DEFILING OF FS 57.105 AND 768.79.
This court should grant the writ of the
petitioner which is of exceptional importance
because FS 57.105 and 768.79 are a derogation of
common law to get an award of attorney fees and
need to be followed to the letter of the law. The

35

filing of defective 57.105 and 768.79 procedurally
and substantively is in bad faith against the pro se
litigant who filed the lawsuit against attorneys for
damages caused by filing of false document in an
official HOA record. Because the Plaintiffs are pro
se, none of the judges looked at the false document
and gave the decision for dismissal with prejudice
on the basis that the complaint was conclusory.
There was no discovery provided prior to dismissal
and simply the case was dismissed with prejudice
and now the court officers and Judge Weiss is
considering it as a sham pleading because attorney
Mr. Wert is a member of the Board of Governor of
the Florida bar of the same judicial circuit as all the
judges in the case. Mr. Wert has done many
violations of rules of discovery, rules of evidence,
violation of rule of professional conduct 3.7, 3.4,
Judicial rules 2.515 and Judicial rules 2.505 (e)(f)
and also defying and defiling FS 57.105 and 768.79.
The Appeals court simply affirmed the decision of
the lower court. It is all possible because the
litigants are pro se, colored and of ethnic origin and
attorney Mr. Wert is from a big law firm and
influential so none of the judges want to
acknowledge his misrepresentation and subverting
the judiciary.
The Court decided in United States v. Guest
383 U.S. 745 (1966) that the Enforcement Clause
gave Congress the power to regulate the private acts
of individuals who conspired with state officials to
deprive people of their rights under Section One of
the Fourteenth Amendment.

36

Discrimination is prohibited for race and color per
the Fourteenth Amendment when the state courts to
enforce them. Shelley u. Kraemer, 334 U.S. 1 (1948)
8. QUESTION
OF
GREAT
PUBLIC
IMPORTANCE TO BE RESOLVED BY THIS
COURT IS UNLAWFUL ATTEMPTS OF
ATTORNEYS IN VIOLATION OF THE
COLORED
CONSTITUTION TO EXPEL
PEOPLE FROM WEALTHY COMMUNITIES
The millions of colored people are affected by
unconstitutional acts of due process violation and
discrimination by HOA, attorneys and state officers.
This Court has an authority to deter these kinds of
unconstitutional acts.

37

CONCLUSION
Petitioners pro se Dr. Usha Jan and Manohar Jain
respectfully request that this Court grant petition for
writ of certiorari for the foregoing reasons of (i)
protecting the rights of colored people and pro se
litigants under Federal Law, 14th Amendment to the
Constitution of United States of America and also to
protect the integrity and public trust in the Judicial
System of America.
Respectfully submitted on this 2nd day of October
2019,

Dr. Usha Jain Pro Se
&

P-:

Manohar Jain Pro Se

Dr. Usha Jain and Manohar Jain
4800 S. Apopka Vineland Road, Orlando, FL 32819
Telephone: (407) 876-5555
Fax: (407)876-5557
Email: driainproselitigant@outlook.com
i ainemer gicare@outlook .com

